                                         I
                                                                               i
                                                   NATIONAL SCIENCE FOUNDA 1ION                                      11

                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS                                      11




                                              CLOSEOUT MEMORANDUM                                                   11




11   Case Number: 1-03030011
                                                                                  11           Page 1 of 1



          On December 12,2002, we received an allegation that a university' had failed to fullfil its? cost-
          sharing obligation. Specifically, it was alleged that approximately $40,000 budgeted to upgrade
          a computer to be used for gran? sponsored research, was never provided to make the purchase.
          The complainant3stated that the funds were to represent the university's cost-sharing obligation
          for the award and because the funds were not provided the equipment was not purchased. ,

          We obtained supporting documentation and a request was issued to the University for varibus
          records relating to the grant. The requested records, including an acknowledgement from fhe
          university that it had confirmed the allegations, were received and subsequently reviewed.

          The university also proposed corrective actions and identified steps taken to ensure future,
          compliance. The university's proposal was reviewed and approved by both the Program Officer
          and the DGA Office and subsequently accepted. This corrective action resulted in the puI?chase
          of the computer originally identified for the research work and resulted in funds totaling $58,229
          being put to better use in support of the grant.
                                                                                                               /I




          Based on the lack of any evidence to indicate the actions of the university were intentional, their
          eagerness to fulfill their obligations to the grant and their proactive actions to ensure future
          compliance with all grant policies and requirements, this investigation is closed and no &her
         .action is warranted.                                                                             I(




          Accordingly, this case is closed.

                                                                                                           I



                                                                                                           I




          I                                                                                         'II/



                                                                                                    !I
 NSF OIG Form 2 (11/02)             -                                                               I1
